HHS/OIG - Audit,"Review of Kosovo Refugee Emergency Grant Program (90-ZK-0002) Immigration and Refugee Services of America, Washington, D.C.,"(A-03-01-00513)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Kosovo Refugee Emergency Assistance Grant Program (90-ZK-0002) Immigration and Refugee Services of America,
Washington, D.C.," (A-03-01-00513)
December 10, 2001
Complete
Text of Report is available in PDF format (246 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
From May 1999 through April 2000, the Immigration and Refugee Services of America (IRSA) received $1,165,927 in Federal
funds from the Administration for Children and Families (ACF) for the Kosovo Refugee Emergency Assistance Grant Program
to assist refugees in applying for asylum in the U.S.  We found that IRSA accomplished all grant objectives and, in
general, complied with the standard terms and conditions of the grant and was capable of managing Federal funds.  However,
we also determined that IRSA had internal control weaknesses that required correction, resulting in IRSA overcharging ACF
$10,913, relying on some verbal accounting policies and maintaining uninsured bank deposits.  The IRSA generally concurred
with our recommendations and agreed to refund $10,913 in overcharges.  However, IRSA officials stated that their management
or auditors do not anticipate any loss from the uninsured bank deposits.  We recommended that IRSA recognize and handle
uninsured bank deposits appropriately.